WSECU
PO BOX WSECU | Olympia, WA 98507
800.562.0999

IMPORTANT CREDIT CARD DISCLOSURES for cards issued prior to August 20, 2018
The following disclosure represents important details concerning your Platinum Rewards or Gold Rebate credit card issued prior
to August 20, 2018. The information about costs of the card are accurate as of October 18, 2019. You can contact us toll-free at
800.562.0999 or PO Box WSECU, Olympia, WA 98507 to inquire if any changes occurred since the effective date.

INTEREST RATES and INTEREST CHARGES

Annual Percentage Rate (APR)
for purchases, cash advances,
& balance transfers

Platinum Rewards

Gold Rebate

10.25%-13.25%

11.25%

Your rate will depend on your credit history. This APR will vary with the market
This APR will vary with the market based based on the Prime Rate*.
on the Prime Rate*.

Paying interest

Your due date is at least 21 days after we mail your billing statement. We will not charge
you interest on purchases or balance transfers if you pay your entire new purchase or
balance transfer balance by the due date each month. We will begin charging interest
on cash advances on the date the cash advance is posted to your account.

Minimum interest charge

None

For credit card tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the Consumer Financial Protection Bureau website.

FEES
Fees to open or maintain your account
-Annual fee
-Application fee

None
None

Transaction fees
-Balance transfer
-Cash advance
-Foreign transaction

None
2% of the amount advanced up to $25.00
None

Penalty fees
-Over the credit limit
-Returned payment
-Late payment

None
None
$25.00 or your minimum payment required, whichever is less.
Balances of $25.00 or less must be paid in full.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new pu r chases)."
*Variable Rates: The Annual Percentage Rate (APR) may increase or decrease if the highest rate of interest identified as the Prime
Rate in the Money Rates column of the Wall Street Journal increases or decreases.
Platinum Rewards: The APR will be equal to the Prime Rate plus a margin of 5.50% - 8.50%.
Gold Rebate: The APR will be equal to the Prime Rate plus a margin of 6.50%.
The interest rate can change monthly on the 18th day of the month following a change in the Prime Rate. The APR will never be
more than 18.00%. Any increase will take the form of more payments of the same amount.
MKT-371 11.19

